HHS/OIG-Audit--"Capitation Rates for Medicare Managed Care Plans Are Inflated Due to Improper Payments Included in Rate Calculations, (A-14-97-00206)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Capitation Rates for Medicare Managed Care Plans Are Inflated Due to
Improper Payments Included in Rate Calculations," (A-14-97-00206)
September 11, 1998
Complete Text of Report is available in PDF format
(505 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Audits of the Health Care Financing Administration's (HCFA) financial statements
estimated that the Medicare fee-for-service (FFS) program improperly paid providers
$23.2 billion in Fiscal Year (FY) 1996 and $20.3 billion in FY 1997. Therefore,
the capitation rate setting methodology for managed care organizations (MCO)
is flawed because the methodology is based in part on Medicare's FFS system
with capitation rates for MCOs set at 95 percent of the average cost of treating
the beneficiary in Medicare's FFS program. As such, 95 percent of improper FFS
payments are included when MCO capitation rates are calculated. Unless these
improper payments are removed from MCO rate calculations, they will continue
to result in the equivalent of an overpayment in the Medicare managed care program
at taxpayers' expense. We recommended that HCFA pursue legislation that will
allow modifications to MCO capitation rates which would include an adjustment
for the estimated amounts of unrecovered improper payments that are included
in MCO rate calculations.